Audit Report




OIG-12-070
SAFETY AND SOUNDESS: Review of OCC Community Bank
Examination and Appeals Processes
August 31, 2012




Office of
Inspector General
DEPARTMENT OF THE TREASURY
Contents

Audit Report

  Background ................................................................................................ 3

  Results of Audit .......................................................................................... 4

      Examination Timelines .............................................................................          4
      Examination Consistency .........................................................................            7
      Appeals .................................................................................................    9
      Data Quality ...........................................................................................    12

  Recommendations ....................................................................................... 13

Appendices

  Appendix 1:          Request to Inspectors General for Report on Examination Process
                       for Small Community Banks and Credit Unions ......................... 15
  Appendix     2:      Objectives, Scope, and Methodology ...................................... 17
  Appendix     3:      Management Comments ........................................................ 18
  Appendix     4:      Major Contributors to This Report ........................................... 20
  Appendix     5:      Report Distribution ................................................................ 21



Abbreviations

  OCC                  Office of the Comptroller of the Currency
  OIG                  Office of Inspector General
  QA                   quality assurance
  ROE                  report of examination




                       Review of OCC Community Bank Examination and Appeals Processes                             Page i
                       (OIG-12-070)
         This page intentionally left blank.




Review of OCC Community Bank Examination and Appeals Processes   Page ii
(OIG-12-070)
                                                                                        Audit
OIG
The Department of the Treasury
                                                                                        Report
Office of Inspector General




                       August 31, 2012

                       Thomas J. Curry
                       Comptroller of the Currency

                       This report presents the results of our review of the Office of the
                       Comptroller of the Currency’s (OCC) examination and appeals
                       processes for community banks and federal savings associations
                       during the period 2007 through 2011. 1 We performed this review at
                       the request of the Chairman of the U.S. Senate Committee on
                       Banking, Housing, and Urban Affairs. The Inspectors General (IG) of
                       the Federal Deposit Insurance Corporation (FDIC), Board of Governors
                       of the Federal Reserve System (FRB), and National Credit Union
                       Association (NCUA) were similarly requested to review their
                       respective agencies’ processes. The results of the companion reviews
                       will be issued under separate cover by the IG office responsible for
                       the work. The request letter is provided as appendix 1.

                       Consistent with the Congressional request, our audit objectives were
                       to determine for OCC-regulated community banks and federal savings
                       associations (1) examination timelines; (2) how OCC ensures
                       consistency in the administration of examinations across the country;
                       (3) the ability of OCC-regulated institutions to question examination
                       results, such as through an Ombudsman, an appeals process, or
                       informal channels; and (4) the frequency and success of such
                       appeals. To accomplish these objectives, we analyzed OCC data on
                       examinations and appeals, reviewed related OCC documentation, and
                       interviewed OCC officials involved in the examination, quality


1
 OCC generally defines community banks as those with less than $1 billion in total assets. With respect to
federal savings associations, the Dodd-Frank Wall Street Reform and Consumer Protection Act transferred
the regulatory functions for these institutions from the former Office of Thrift Supervision to OCC effective
July 21, 2011. We included in the scope of our review those federal savings associations that had less
than $1 billion in total assets and for which OCC had completed a full-scope safety and soundness
examination or ruled on an appeal.

                       Review of OCC Community Bank Examination and Appeals Processes                  Page 1
                       (OIG-12-070)
                       assurance, and appeals processes. See appendix 2 for more details
                       about our audit scope and methodology.

                       In brief, we found that

                       •   OCC’s four districts established timeliness benchmarks for
                           examinations that were generally consistent, and mostly met;
                       •   to promote consistency in the examination process, OCC
                           examiners in all districts use the Comptroller’s Handbook and the
                           Uniform Financial Institutions Rating System, or “CAMELS,” 2 in
                           the administration of examinations;
                       •   OCC districts have quality assurance (QA) programs to monitor
                           and evaluate the administration of examinations;
                       •   banks have the ability to question examination results formally and
                           informally through the OCC Ombudsman and the district
                           supervisory offices; and
                       •   community banks made few appeals.

                       Our review identified the need for (1) OCC’s Western District to
                       expand its QA program to include comprehensive reviews of its
                       examination process; (2) OCC to update and revise its policies and
                       procedures regarding appeals, to include the responsibilities of both
                       the Ombudsman’s office and the supervisory district offices, and
                       ensure that guidance provides consistency in the interpretation,
                       application, and documentation of the appeals process; and (3) OCC
                       personnel to enter examination data correctly into Examiner View 3 so
                       that OCC can more effectively monitor and measure actual
                       examination timeliness against benchmarks. This report contains
                       three recommendations to address these matters.

                       In a written response, which is included as appendix 3, OCC agreed
                       with our conclusions and recommendations. OCC stated that (1) the
                       Western District will adjust its QA program to include comprehensive
                       reviews of its examination process; (2) OCC is currently updating its

2
  Federal banking agencies use the Uniform Financial Institutions Rating System, or “CAMELS,” to assign
composite and component ratings to financial institutions. An institution’s composite CAMELS rating
integrates ratings from six component areas - capital adequacy, asset quality, management, earnings,
liquidity, and sensitivity to market risk. The ratings range from 1 to 5 with 1 being the highest rating and
least supervisory concern.
3
  Examiner View is a supervisory information system application designed by OCC to assist bank examiners
in preparing and conducting supervisory activities for financial institutions.

                       Review of OCC Community Bank Examination and Appeals Processes                Page 2
                       (OIG-12-070)
             policies and procedures governing appeals to define the different
             types of appeals, describe the process for making decisions, and
             assign responsibility for tracking; and (3) OCC will incorporate a
             metric related to Examiner View data integrity into the performance
             measures for bank supervision personnel to focus their attention on
             this important aspect of their work. We consider the actions
             underway and planned by OCC to be responsive to our
             recommendations. OCC will need to identify and record planned
             completion dates for taking certain corrective actions in the Joint
             Audit Management Enterprise System (JAMES), the Department of
             the Treasury’s audit recommendation tracking system.

             In its response, OCC also stated that while community banks made
             few appeals, its appeals process is readily accessible to all institutions
             and there are no impediments that would deny an OCC-supervised
             institution the ability to appeal material supervisory determinations.
             OCC further commented that its review process ensures fairness to
             all parties involved.

Background
             OCC’s primary mission is to charter, regulate, and supervise national
             banks and federal savings associations. OCC supervises
             approximately 1,300 community banks and 640 federal savings
             associations.

             OCC’s supervision of community banks focuses on the bank’s ability
             to effectively manage risk. Because of the diversity in the risks
             community banks assume, each bank tailors its risk management
             system to its needs and circumstances. The supervisory framework
             for community banks includes a core assessment, which provides the
             objectives and procedures for examiners to use to meet the
             requirements of a full-scope, on-site examination. Examiners use the
             core assessment to conduct supervisory activities and to monitor
             community banks’ efforts to appropriately identify and manage their
             risks.




             Review of OCC Community Bank Examination and Appeals Processes      Page 3
             (OIG-12-070)
                       Full-scope, on-site examinations include examination activities
                       performed during the supervisory cycle 4 that (1) are sufficient in
                       scope to assign or confirm an insured depository institution’s
                       CAMELS composite and component ratings, (2) satisfy core
                       assessment requirements, (3) result in conclusions about an
                       institution’s risk profile, (4) include onsite supervisory activities, and
                       (5) generally conclude with the issuance of a report of examination
                       (ROE).


Results of Audit

                       Examination Timelines

                       OCC’s Four Districts Established Timeliness Benchmarks for
                       Examinations that Were Generally Consistent, and Mostly Met

                       OCC’s four district offices—Northeastern District, Southern District,
                       Western District, and Central District—carry out its community bank
                       and federal savings association supervisory activities. The districts
                       have different, but generally consistent, examination timeliness
                       benchmarks for full-scope, on-site examinations of community banks,
                       which were the focus of our analysis. The examination timeliness
                       benchmark for the Northeastern District, Southern District, and
                       Western District was measured from the examination start date to the
                       ROE mail date. In this regard, the examination timeliness benchmark
                       was 90 days for financial institutions with 1 and 2 CAMELS
                       composite ratings and 120 days for financial institutions with 3, 4,
                       and 5 CAMELS composite ratings. The Central District’s examination
                       timeliness benchmark was measured from the exit meeting date (field
                       work end date) to the ROE mail date, and was not to exceed 45 days
                       for financial institutions with 1 and 2 CAMELS composite ratings and
                       60 days for financial institutions with 3 and 4 CAMELS composite
                       ratings. The Central District did not have an examination timeliness
                       benchmark for financial institutions with a 5 CAMELS composite

4
  In general, banks must receive a full-scope, on-site examination at least once during each 12-month
period. This requirement may be extended to 18-months if all the conditions are met: (1) the bank has total
assets of less than $500 million, (2) the bank is well capitalized, (3) the bank received a CAMELS
component rating of 1 or 2 for the management component and a CAMELS composite rating of 1 or 2 at
its most recent examination, (4) the bank is not subject to a formal enforcement proceeding or order, and
(5) bank ownership had not changed during the prior 12 months.

                       Review of OCC Community Bank Examination and Appeals Processes                Page 4
                       (OIG-12-070)
                                                   rating. In our analysis of examination timeliness, we used the 120
                                                   days as the benchmark for all examinations and all four districts.

                                                   Based on data provided by OCC, we calculated the number of days
                                                   the districts spent to complete each full-scope, on-site examination,
                                                   using the examination start date as the beginning date and the ROE
                                                   mail date as the end date, and then calculated the average for those
                                                   examinations for each year from 2007 through 2011.

                                                   As shown in Chart 1 below for three districts (Central, Western, and
                                                   Southern), the average number of days to complete examinations
                                                   was under the 120-day examination timeliness benchmark. The
                                                   average number of days to complete examinations in the
                                                   Northeastern District exceeded the benchmark for 4 of the 5 years
                                                   analyzed.

Chart 1

                                                        Average Days per Exam and by District
                                                        (numbers above bars are number of exams)
                          160

                          140                                  172                                             159
                                      191                                              166

                          120
  Average days per exam




                                                                           274                                                         176
                                                                                                   287
                          100                                                                458                     450         372         445         Central
                                                         334                                                               320                     329
                                                  266                406
                                337                                                                      370
                          80                                                     342                                                                     Northeastern
                                            425
                                                                                                                                                         Southern
                          60
                                                                                                                                                         Western
                          40

                          20

                           0
                                      2007                     2008                    2009                    2010                    2011
                                                                                       Year



                                                   Chart 2 below shows, by district, the number and percentages of
                                                   examinations performed during the period 2007 through 2011 that
                                                   either met or exceeded the 120-day examination timeliness

                                                   Review of OCC Community Bank Examination and Appeals Processes                                                  Page 5
                                                   (OIG-12-070)
                          benchmark. In all four districts, most examinations were completed
                          within the 120-days.

Chart 2
        Actual Days to Complete Examinations,                   Actual Days to Complete Examinations,
             2007-2011- Central District                            2007-2011- Southern District
     3                                                       9
 Less than                                               Less than
    1%                                                      1%

                     70                                                 165
                     4%                       0-120                     8%                         0-120
             203
             12%                                               287                                 121-180
                                              121-             13%
                                              180                                                  181-360
                                1479                                              1723
                                84%           181-                                79%              361+
                                              360

                                              361+




        Actual Days to Complete Examinations,                Actual Days to Complete Examinations, 2007-
            2007-2011, Western District                               2011- Northeastern District

                        5
                                                                          22
                    Less than
                                                                          3%
                       1%

                   103                       0-120               155                                    0-120
                   7%                                            18%
       259                                   121-180
                                                                                                        121-
       18%                                                                                              180
                                             181-360                                505
                                   1109
                                                              182                   58%                 181-
                                   75%                                                                  360
                                             361+             21%
                                                                                                        361+




                          Review of OCC Community Bank Examination and Appeals Processes                   Page 6
                          (OIG-12-070)
                      Our analysis also revealed that all four districts completed a number
                      of examinations in less than 30 days, with the Southern District
                      having the highest percentage at 9 percent.

                      Examination Consistency

                      OCC Examiners in All Districts Use the Comptroller’s Handbook and
                      the Uniform Financial Institutions Rating System or “CAMELS” in the
                      Administration of Examinations

                      To meet the requirements of a full-scope, on-site examination during
                      the supervisory cycle, examiners in every district use the same
                      examination process outlined in the Comptroller’s Handbook. 5
                      According to the handbook, OCC uses an “integrated risk-based
                      approach to supervision,” which the handbook states is designed to
                      maximize the effectiveness of OCC’s supervision process by
                      assessing all bank activities under one supervisory plan. With this
                      integrated approach, the supervisory office Assistant Deputy
                      Comptroller has responsibility for all supervisory activities, including
                      safety and soundness, information technology, asset management,
                      and compliance. This approach is intended to help ensure consistency
                      in the assessment of risk 6 and the degree of supervisory attention
                      warranted for the examination.

                      As noted in footnote 2, federal banking agencies, including OCC, use
                      the uniform CAMELS rating system to assign composite and
                      component ratings to financial institutions based on the results of its
                      examinations. The CAMELS ratings system takes into consideration
                      certain financial, managerial and compliance factors that are common
                      to all financial institutions.

                      Also, OCC officials told us they ensure consistency in examinations
                      by having examiners take the same training and follow the same
                      agency policies.

5
  The Comptroller’s Handbook, available on www.occ.gov/publications/publications-by-type/comptrollers-
handbook/index-comptrollers-handbook.html#safety, is comprised of a series of booklets covering a
number of supervisory topical areas. The relevant booklet for community banks and federal savings
associations is titled “Community Bank Supervision.”
6
  OCC has defined eight major categories of risk for bank supervision purposes: credit, interest rate,
liquidity, price, operational, compliance, strategic, and reputation.

                      Review of OCC Community Bank Examination and Appeals Processes              Page 7
                      (OIG-12-070)
OCC Districts Have QA Programs to Monitor and Evaluate the
Administration of Examinations

Each district developed and executed its own QA program and
provided headquarters with a copy of the program. Once the QA
reviews were completed, the districts provided headquarters with an
annual assertion that its respective program was executed as
planned.

As part of their QA programs, the Northeastern District, Southern
District, and Central District each performed QA reviews of their
respective examination processes. The districts selected for review a
sample of completed examinations. For example, in 2011 the
Northeastern District reviewed 27 examinations, the Southern District
reviewed 57 examinations, and the Central District reviewed 36
examinations. The objectives of the reviews were to

•   ensure compliance with OCC policy, guidelines, and procedures.
•   determine the effectiveness of the field office supervisory efforts
    in developing clear strategy, scope of examination, identification
    and follow-up on matters requiring attention, and support of
    findings and conclusions in Examiner View.
•   determine if the examiners properly assessed risk and have
    support for their ratings and risk assessments.

The Northeastern, Southern and Central Districts also performed
other types of QA reviews such as problem bank reviews, which
evaluated the quality and appropriateness of the OCC’s actions at
banks that had a composite CAMELS rating of 3, 4 or 5; and specific
risk-based reviews, which focused on the areas of risk facing the
district.

The Western District did not perform QA reviews of its entire
examination process, but instead conducted QA reviews with a more
narrow focus on areas of risk identified within the district. For
example, the Western District’s 2011 reviews focused on the risk
areas of allowance for loan and lease losses, compliance, and
liquidity. The number of banks reviewed for each risk area varied. For
example, in 2011, 11 examinations were reviewed for the allowance
for loan and lease losses risk area, 11 examinations were reviewed
for the compliance risk area, and 4 examinations were reviewed for

Review of OCC Community Bank Examination and Appeals Processes     Page 8
(OIG-12-070)
                       the liquidity risk area. The Western District also performed other
                       types of QA reviews such as problem bank reviews, reviews of
                       actions taken by examiners to follow-up on matters requiring
                       attention 7 on a sample of examinations; and reviews of examiner loan
                       classifications.

                       As designed, we believe the Western District’s QA program did not
                       necessarily ensure that its examinations were administered
                       consistently because it primarily focused on risk areas and not the
                       entire examination process, in contrast to the QA programs of the
                       other three districts. As a result, the Western District cannot be
                       assured that its examiners consistently applied handbook guidelines
                       for all areas of the examination.

                       Appeals

                       Banks Have the Ability to Question Examination Results Formally and
                       Informally Through the Ombudsman and the District Supervisory
                       Offices

                       The Riegle Community Development and Regulatory Improvement Act
                       of 1994 required federal banking agencies to establish an
                       independent internal appellate process. 8 The independent appellate
                       process was defined as a review by an agency official who does not
                       directly or indirectly report to the agency official who made the
                       material supervisory determination under review.

                       OCC established the Office of the Ombudsman and procedures for
                       national banks to appeal agency decisions in June 1993, prior to
                       being required by statute. The Ombudsman, who reports directly to
                       the Comptroller of the Currency, functions outside of the bank
                       supervision area and reviews financial institution appeals to determine
                       if supervisory decisions are reasonable based on available information.
                       The Ombudsman told us he briefs the Comptroller on each formal
                       appeal as it comes to his office and provides the Comptroller with a
                       quarterly report that summarizes all formal appeals.

7
  Matters requiring attention are bank practices noted during an examination that deviate from sound
governance, internal control, and risk management principles, which may adversely affect the bank’s
earnings or capital, risk profile, or reputation if not addressed.
8
  12 U.S.C. § 4806, Regulatory appeals process, ombudsman, and alternative dispute resolution.

                       Review of OCC Community Bank Examination and Appeals Processes                  Page 9
                       (OIG-12-070)
                        OCC established guidance for its appeals process in (1) Bulletin
                        2011-44, published November 2011; (2) National Bank Appeals
                        brochure, the most recent version published April 2012; and
                        (3) Policy and Procedures Manual (PPM) 1000-9 (REV), Administering
                        Appeals from National Banks, dated February 2002.

                        According to Bulletin 2011-44, a bank may seek a review of
                        appealable matters, 9 such as examination ratings, adequacy of loan
                        loss reserve provisions, and classifications of loans, by filing an
                        appeal with the Ombudsman or the Deputy Comptroller of the
                        institution’s supervisory district office. In the absence of extenuating
                        circumstances, both the Ombudsman and supervisory office are to
                        issue a written response to a formal appeal within 45 days of
                        accepting the appeal.

                        For appeals filed with the supervisory office, if the bank is not
                        satisfied with the decision by the supervisory office, it can file a
                        second-tier appeal with the Ombudsman within 30 days. For second-
                        tier appeals, the Ombudsman is to issue a written response within 30
                        days.

                        According to OCC, there were 22 formal appeals filed by community
                        banks from 2007 through 2011, and in 8 of those appeals; the
                        financial institutions were issued a response within 45 days. The
                        financial institutions for the remaining 14 formal appeals received
                        responses between 47 to 158 days from the date the appeal was
                        accepted. There were no second-tier appeals from community banks
                        during this period.

                        Bulletin 2011-44 also states OCC remains committed to making every
                        effort to resolve disputes arising during the supervisory process in an
                        “informal” manner, but does not define or describe an informal
                        appeals process. However, the National Bank Appeals brochure states
                        that appeals are informal until an agency decision is delivered. The
                        brochure includes a flow chart that describes the informal appeals
                        process as beginning with a banker’s supervisory concern made prior
                        to an agency decision. Regarding the informal appeals process, these
                        two documents are not consistent. We found that the districts and
                        Ombudsman’s office were also interpreting the informal appeals

9
    A bank may not appeal a formal enforcement action and appointments of receivers and conservators.

                        Review of OCC Community Bank Examination and Appeals Processes            Page 10
                        (OIG-12-070)
process differently. Some OCC district officials stated that banks
cannot file an informal appeal until after an OCC decision or
examination results are finalized and the bank receives them. On the
other hand, the Ombudsman’s office and the Western District did
accept informal appeals by bankers with a supervisory concern made
prior to an agency decision.

PPM 1000-9 (REV) addressed the tracking of appeals, including the
assignment of an appeals coordinator for each district, specific
documentation requirements for each appeal case file, and a
standardized case file numbering scheme. OCC’s Ombudsman,
however, stated that the policy is outdated and not consistently
followed or enforced. For example, although OCC had a centralized
system that was supposed to track appeals, the system was
incomplete because the districts did not follow a standard
methodology for recording all appeals in the system. In this regard,
OCC’s Southern District did not track appeals at all. The other three
districts documented appeal information for individual banks in
narrative form in Examiner View and tracked appeals using district
developed spreadsheets.

According to the Ombudsman, OCC plans to revise its policies and
procedures and take other steps to improve the consistency in the
interpretation, application, and documentation of the appeals process.

Community Banks Made Few Appeals

As discussed above, community banks filed 22 formal appeals from
2007 to 2011. The Ombudsman/appropriate Deputy Comptroller
ruled in favor of the filing bank for 3 of the 22 formal appeals. The
issues in dispute included a citation for violation of law, examination
findings, and ROE comments. For 1 formal appeal, the Ombudsman
ruled in favor of the OCC supervisory office on the CAMELS asset
quality, management, and composite ratings that had been contested
by the bank and ruled in favor of the bank on a contested compliance
rating. For the other 18 formal appeals, the Ombudsman/appropriate
Deputy Comptroller ruled in favor of the supervisory office.

According to OCC, 24 informal appeals were filed by community
banks during this period. One (1) of the 24 informal appeals was
upheld for the bank by the supervisory office. This appeal involved a

Review of OCC Community Bank Examination and Appeals Processes   Page 11
(OIG-12-070)
contested examination finding on a Bank Secrecy Act matter. Another
2 informal appeals were ruled in part for the bank and in part for the
OCC supervisory office. The subject matter of one appeal involved
certain comments made in the ROE and the subject matter of the
other appeal involved grades assigned to certain loans.

In the formal appeals within our scope, the most common issues
were disagreements in the CAMELS ratings, especially the asset
quality and management component, and the composite rating. In the
informal appeals, the most common issues were the CAMELS ratings
and the risk ratings for credit.

With so few appeals, either formal or informal, filed during the time
period covered by this review (a total of 46 appeals), it is difficult to
draw a conclusion about the success of appeals filed by community
banks. It is also important to note that during this time period, 2007
through 2011, the four districts completed over 6,200 community
bank examinations.

Data Quality

Our review included analysis of computer generated data and other
information provided by OCC. We tested the computer generated
data to determine its reliability and appropriateness to support our
conclusions. To the extent possible, we verified the reliability of both
the computer generated data and other information through the use
of independent corroborating evidence, and through these
procedures, concluded the data was sufficiently reliable for answering
our audit objectives. Nonetheless, we encountered some data that
was unreliable and/or incomplete. For example, there were missing
on-site fieldwork end dates in Examiner View for certain
examinations. The system also included anomalous data, such as an
entry with the year 4305 and ROE approval dates that were after the
ROE mail dates. Additionally, the Southern District could only provide
27 of the 55 individual bank QA reviews conducted in 2007 because
some of the information files were corrupted or had been accidently
deleted during various computer conversions.




Review of OCC Community Bank Examination and Appeals Processes      Page 12
(OIG-12-070)
Recommendations
           We recommend that the Comptroller of the Currency:

           1. Ensure that the Western District expands its QA program to
              include comprehensive reviews of its examination process.

              Management Response

              The Western District management team plans to adjust its QA
              program in fiscal year 2013 to include comprehensive reviews of
              its examination process.

              OIG Comment

              OCC’s commitment to expand the Western District QA program in
              fiscal year 2013 is responsive to the recommendation.

           2. Ensure that OCC updates and revises its policies and procedures
              regarding appeals, to include the responsibilities of both the
              Ombudsman’s office and the supervisory district offices. OCC
              should ensure that the guidance provides consistency in the
              interpretation, application, and documentation of the appeals
              process.

              Management Response

              OCC is updating its policies and procedures governing appeals to
              define the different types of appeals, describe the process for
              making decisions, and assign responsibility for tracking. The
              revisions will ensure responsibilities are clear and that
              interpretation, application, and documentation of the appeals
              process are consistent throughout OCC. The updated policies and
              procedures should be in place by September 30, 2012.

              OIG Comment

              OCC’s planned corrective action is responsive to the
              recommendation.



           Review of OCC Community Bank Examination and Appeals Processes   Page 13
           (OIG-12-070)
3. Ensure that OCC personnel enter examination data correctly into
   Examiner View so that OCC can more effectively monitor and
   measure actual examination timeliness against benchmarks.

   Management Response

   OCC plans to incorporate a metric related to Examiner View data
   integrity into the performance measures for bank supervision
   personnel to focus their attention on this important aspect of their
   work.

   OIG Comment

   OCC’s planned corrective action is responsive to the
   recommendation.

                              * * * * *

We appreciate the courtesies and cooperation provided to our staff
during the audit. If you wish to discuss the report, you may contact
me at (202) 927-0384 or Theresa Cameron, Audit Manager, at
(202) 927-1011. Major contributors to this report are listed in
appendix 4.



/s/
Jeffrey Dye
Audit Director




Review of OCC Community Bank Examination and Appeals Processes   Page 14
(OIG-12-070)
Appendix 1
Request to Inspectors General for Report on Examination Process for Small
Community Banks and Credit Unions




Review of OCC Community Bank Examination and Appeals Processes              Page 15
(OIG-12-070)
Appendix 1
Request to Inspectors General for Report on Examination Process for Small
Community Banks and Credit Unions




Review of OCC Community Bank Examination and Appeals Processes              Page 16
(OIG-12-070)
Appendix 2
Objectives, Scope, and Methodology




Consistent with the Congressional request, our objectives were to
determine for community banks and federal savings associations
regulated by the Office of the Comptroller of the Currency (OCC)
(1) examination timelines; (2) how OCC ensures consistency in the
administration of examinations across the country; (3) the ability of
OCC-regulated institutions to question examination results, such as
through an Ombudsman, an appeals process, or informal channels;
and (4) the frequency and success of such appeals.

To accomplish these objectives, we

•   determined that the time period relating to OCC’s supervision of
    community banks covered by our audit would be from January
    2007 through December 2011.
•   reviewed applicable laws and OCC policies and procedures and
    interviewed OCC personnel to gain an understanding of
    examination timelines, consistency in the administration of
    examinations, and the appeals process.
•   obtained examination timeline data and performed tests of the
    data to determine its reliability, completeness, accuracy and
    validity. Using the data provided by OCC, we analyzed
    examination timelines by year and by district.
•   obtained and reviewed a sample of OCC district quality
    assurance (QA) review reports for 2 years from each district
    within our scope.
•   obtained appeals data and performed an analysis of appeals by
    year and by district. Specifically, we analyzed the data to
    determine the number of appeals, the issues raised in the
    appeals, and the decisions on appeals.

We performed our audit fieldwork from March through July 2012.

We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.



Review of OCC Community Bank Examination and Appeals Processes   Page 17
(OIG-12-070)
Appendix 3
Management Comments




Review of OCC Community Bank Examination and Appeals Processes   Page 18
(OIG-12-070)
Appendix 3
Management Comments




Review of OCC Community Bank Examination and Appeals Processes   Page 19
(OIG-12-070)
Appendix 4
Major Contributors To This Report




Theresa Cameron, Audit Manager
Dana Duvall, Auditor-in-Charge
Patrick Gallagher, Auditor
Maria McLean, Auditor
Jen Ksanznak, Auditor
John Gauthier, Referencer




Review of OCC Community Bank Examination and Appeals Processes   Page 20
(OIG-12-070)
Appendix 5
Report Distribution




Department of the Treasury

   Deputy Secretary
   Office of Strategic Planning and Performance Management
   Office of the Deputy Chief Financial Officer, Risk and Control
      Group

Office of the Comptroller of the Currency

   Comptroller of the Currency
   Liaison Officer

Office of Management and Budget

   OIG Budget Examiner

U.S. Senate

   Chairman and Ranking Member
   Committee on Banking, Housing, and Urban Affairs




Review of OCC Community Bank Examination and Appeals Processes   Page 21
(OIG-12-070)
